WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-759
Brivo Systems, LLC

Robel Bing

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

□ I am a member of the Bar of the Supreme Court of the United States.
0 I am not presenth^Jmember of the Bar of this Court. Should a response be requested, the response
will be filed bv^aBim.member.
Signature
Date:

January 5, 2020

(Type or print) Name

Edward S. Schenk III
0 Mr.

Firm

□ Ms.

□ Mrs.

□ Miss

Williams Mullen, PC

Address

P.O. Box 1000

City & State
Phone

Raleigh, North Carolina

919.981.4303

Zip
Email

27602

eschenk@williamsmullen.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

fcLi

CC: Robel Bing, pro se

jAN - 8 2021

WILLIAMS MULLEN
Direct Dial: 919.981.4303
esch en k@wiI I ia m sm u 11 en. com

January 5, 2021
VIA FEDERAL EXPRESS
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington DC 20543
RE:

Robel Bing, Petitioner, pro se v. Brivo Systems, LLC, Respondent
No. 20-759

Dear Mr. Harris:
Our firm represents Respondent in the above-captioned matter. Please find enclosed a
Waiver of Response to the Petition For Writ of Certiorari on behalf of Respondent for filing with
the Court.
Because this case clearly does not warrant review by the Supreme Court, Respondent does
not intend to file a response unless otherwise directed to do so by the Court.
By copy to Petitioner, I am advising of Respondent’s position.
Wjlth Highest Regards,

Edward S. Schenk III

Enclosure: Waiver
Cc (with encl): Robel Bing, Petitioner, pro se

44162632J

301 Fayetteville Street, Suite 1700 (27601) P.O.Box 1000 Raleigh, NC 27602 T 919.981.4000 F 919.981.4300
williamsmullen.com | A Professional Corporation

